HHS/OIG, Audit - "Review of High-Dollar Part B Claims Processed by Cahaba
Government Benefits Administrators Carrier No. 00511 for the Period January 1,
2004, Through December 31, 2006," (A-04-08-00042)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Part B
Claims Processed by Cahaba Government Benefits Administrators Carrier No. 00511
for the Period January 1, 2004, Through December 31, 2006" (A-04-08-00042)
June 20, 2008
Complete
Text of Report is available in PDF format (198 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During calendar years 20042006, Cahaba Government
Benefit Administrators Carrier No. 00511 (the contractor) overpaid providers in
Georgia $138,000.  Generally, the contractor made the overpayments because the
providers incorrectly billed excessive units of service.  In addition, the
Medicare claims processing systems did not have sufficient edits in place during
calendar years 20042006 to detect and prevent payments for these types of erroneous
claims.  We recommend that the contractor
recover the identified overpayments.
The contractor agreed our recommendations.